No. 19-486
In the

Supreme Court of the United States
DONNETT M. TAFFE, PERSONAL
REPRESENTATIVE OF THE ESTATE OF
STEVEN JEROLD THOMPSON, DECEASED,
Petitioner,
v.
GERALD E. WENGERT, IN HIS INDIVIDUAL
CAPACITY, SCOTT ISRAEL, IN HIS INDIVIDUAL
CAPACITY, AND SCOTT ISRAEL, IN HIS
OFFICIAL CAPACITY,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Eleventh Circuit

REPLY BRIEF

Barbara A. Heyer
Counsel of Record
Heyer & A ssociates, P.A.
1311 S.E. 4th Avenue
Fort Lauderdale, FL 33316
(954) 522-4922
civilrtslaw@hotmail.com
Attorneys for Petitioner
293578

A
(800) 274-3321 • (800) 359-6859

i
LIST OF PARTIES
The caption of the case contains the names of all the
parties.

ii
TABLE OF CONTENTS
Page
LIST OF PARTIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  iii
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 1
I.

The Eleventh Circuit, in reversing a district
court ruling denying summary judgment
based upon the defense of qualified immunity,
had accepted the moving party’s version of
the evidence and ignored the evidence of the
non-moving party, contrary to the decisions
of this Court and other Circuits . . . . . . . . . . . . . . 4

II. The Eleventh Circuit’s findings of fact
based upon the moving party’s version
of the evidence, and its acceptance of
pendent jurisdiction based upon those
facts, is in conflict with the decisions of this
Court, other Circuits and Florida courts . . . . . . 9
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

iii
TABLE OF CITED AUTHORITIES
Page
Cases
Archie v. Lanier,
95 F.3d 438 (6th Cir. 1996) . . . . . . . . . . . . . . . . . . . . . . 9
Boag v. MacDougall
454 U. S. 364 (1982) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Chambers v. Ohio Dep’t of Human Servs.,
145 F.3d 793 (6th Cir. 1998) . . . . . . . . . . . . . . . . . . . . . 9
Henricks v. Pickaway Corr. Inst.,
782 F.3d 744 (6th Cir. 2015) . . . . . . . . . . . . . . . . . . . . . 9
Johnson v. Jones,
515 U.S. 304 (1995)  . . . . . . . . . . . . . . . . . . . . . . . . . . 7, 8
McDonald v. Flake,
814 F.3d 804 (6th Cir. 2016)  . . . . . . . . . . . . . . . . . . . 8, 9
Moldowan v. City of Warren,
578 F.3d 351 (6th Cir. 2009) . . . . . . . . . . . . . . . . . . . . . 8
Plumhoff v. Rickard,
134 S. Ct. 2012 (2014)  . . . . . . . . . . . . . . . . . . . . . . . . 7, 8
Scott v. Harris,
550 U.S. 372 (2007) . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 7

iv
Cited Authorities
Page
Tolan v. Cotton,
572 U.S. 650 (2014)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Rule:
Supreme Court Rule 10 . . . . . . . . . . . . . . . . . . . . . . . . .  5-6
Supreme Court Rule 10(a) . . . . . . . . . . . . . . . . . . . . . . . . . 7

1
Petitioner, Donnett Taffe, respectfully replies to
Respondents’ Joint Brief in Opposition.
STATEMENT OF THE CASE
The Respondents fail to address the questions
presented by Petitioner. Instead, to deflect from the issues
at hand, Respondents respond only to questions of their
own devise, thereby ignoring what is before this Court.
Respondents argue that it was “improper” for Petitioner to
present a detailed discussion of facts, falsely claiming that
the version of facts of the nonmoving party Petitioner are
“unsupported by any evidence, or reasonable inference.”
Respondents’ Joint Brief, p. 3. They do not address any
of these material facts that they claim are “unsupported
by any evidence.” That is because they cannot. Instead,
to deflect from this deficiency, they refer this Court
to the incorrect facts set forth in the Eleventh Circuit
decision. (Id.). These are the “facts” which Respondents
had presented to the Eleventh Circuit based upon their
misrepresentation of the record evidence, which are in
stark contrast to the extensive record evidence referred
to in Petitioner’s Writ that was presented to the district
court and to the Eleventh Circuit. Petitioner’s evidence
came from the testimony of the Broward County Sheriff’s
personnel, including its forensic experts, its official records,
including crime scene reports, diagrams and photographs,
other law enforcement personnel, independent witnesses,
and, of course, the dispatch tape. While the district court
carefully examined that evidence, the Eleventh Circuit
simply accepted the words of the moving parties.
Based solely upon the Respondents’ representation of
material facts, and failing to review the record evidence,
the Eleventh Circuit stated:

2
“Presented alone, these conflicting accounts
would likely be sufficient to establish a genuine
dispute that Thompson did not fire at Wengert.
But the audio of the shooting resolves these
conflicting accounts. The audio
c apt u r e s
one or two initial shots, a call over the radio of
‘shots fired,’ someone—presumably Wengert—
shouting ‘put the gun down,’ and then a barrage
of gunfire.” (Emphasis supplied). (App. A, p.
14a).
This statement by the Eleventh Circuit is patently
false. In denying summary judgment, the district court
had carefully reviewed the extensive record evidence,
and properly determined that Petitioner had materially
disputed “virtually every material fact” raised by
Respondents. (App. B, p.32a). The district court did not
and could not find any evidence on the audio of “one or
two initial shots,” nor “Wengert—shouting ‘put the gun
down,’” because it does not exist. The radio transmissions
and the CAD reports, i.e., the dispatch reports in real
time, do not reflect any “initial shots,” nor is there any
evidence on the dispatch tape of anyone saying “put the
gun down.” None of this was addressed by Respondents.
The moving parties’ representations and the conclusions
of the Eleventh Circuit were clearly contradicted by the
record evidence. The dispatch tape is clear.
Something that does not exist cannot “blatantly
contradict” the nonmoving party’s version of facts. What
the record evidence demonstrates is that Wengert, a
deputy sheriff with an extensive record of using excessive
and deadly force, shot and killed Thompson, an unarmed
black man. Thereafter, the record evidence reasonably

3
demonstrates that Wengert and his cohorts covered
up that Wengert had shot and killed an unarmed man.
Emergency rescue personnel were prevented from
entering the scene for twelve minutes while Mr. Thompson
lay in the hallway of the building writhing in agony asking
for help. The rescue personnel were precluded from
entering the building by deputy Yoder, who claimed they
were searching the hallway for a second suspect, this,
despite the fact that, well before the shooting, Wengert
and Yoder had been informed that the second suspect was
already many miles away, as demonstrated by the radio
transmissions and the CAD reports. In stark contrast,
Wengert claimed that he left the scene at this critical time
for the purpose of moving his vehicle. Twelve minutes was
more than sufficient time to place a gun at the far end of
the hallway 51 feet from where Thompson had fallen, and
salt the scene with one cartridge and one spent projectile.
Wengert and his cohorts engaged in this cover up knowing
that the unwritten policy of the Broward County Sheriff’s
office (Israel) of simply accepting the word of its deputies
with respect to the use of force, and ignoring contrary
evidence in order to justify the misconduct of its deputies
would protect them.
Under Petitioner’s version of record facts and
inferences that can be drawn therefrom, no reasonable
officer could have mistakenly believed that Thompson
posed a threat of serious physical harm to anyone. The
relevant material facts are in dispute. Wengert falsely
claimed that he caught up with Thompson and encountered
him only a few feet away in the elevator lobby, and that
Thompson had shot at him two times. However the
physical evidence shows no strike marks or projectiles
to support any part of Wengert’s false story. Wengert’s

4
false claim that, from 63 feet away down a dark hallway,
he could see Thompson with a gun in his hand, laying in a
pool of blood, with his finger trying to squeeze the trigger,
is likewise contradicted by the physical evidence. The gun
which Deputy Yoder initially swore no one had touched,
was 51 feet from where Thompson had fallen, and lacked
any trace of Thompson’s blood or fingerprints. The record
evidence also shows that, despite being in possession of
Thompson’s clothing and swabs from his hands taken for
the purpose of gun powder residue testing, Respondent
Israel deliberately declined to have the residue test
performed. This test certainly would have been evidence
of whether or not Thompson had held and fired the gun.
From this fact, a reasonable jury could have inferred that
Respondents had reason to believe Wengert’s story was
false.
I.

The Eleventh Circuit, in reversing a district court
ruling denying summary judgment based upon the
defense of qualified immunity, had accepted the
moving party’s version of the evidence and ignored
the evidence of the non-moving party, contrary to
the decisions of this Court and other Circuits.

Respondents’ argue that the cases cited by the
Petitioner simply do not apply, incorrectly finding, without
basis, that:
“because there simply was no dispute in this
case. The Eleventh Circuit did not find any
material facts in the Petitioner’s favor. Again,
as detailed above, the Deputy and the Sheriff
sought review of the district court’s failure to
properly apply this Court’s precedent, and the

5
legal question of whether or not they violated
the Decedent’s constitutional rights. It was
only in addressing those questions that the
appellate court concluded that the Petitioner’s
claims were without basis.” (Emphasis added).
Respondents’ Joint Brief, p. 12.
According to the Respondents’, the Eleventh Circuit
was able to reach this conclusion by “slosh[ing] [its] way
though the fact bound morass of ‘reasonableness’” in
addressing Deputy Wengert’s entitlement to qualified
immunity.” Respondents’ Joint Brief, p. 13. In truth, there
was no “morass.” Simply listening to the dispatch tape
would have demonstrated the clear misrepresentations of
the moving parties. Instead, the Eleventh Circuit simply
accepted and adopted those misrepresentations as its own.
Respondents argue that this matter does not warrant
review by this Court “as there is no cognizable conflict
or any other compelling reason warranting certiorari
review.” Respondents’ Joint Brief, 3-4.
The integrity of the courts is of paramount importance.
Where an appellate court accepts jurisdiction, it has an
obligation to review that record in the light most favorable
to the non-moving parties, and not simply rely upon the
statements of the moving parties. The district court
properly reviewed the record evidence prior to rendering
its decision. The Eleventh Circuit did not.
Despite this Court’s wide discretion to grant or deny
review on a writ of certiorari, the Respondents argue that
this matter is not an example of a “compelling reason”
and that Petitioner’s Writ “does not satisfy Rule 10 of this

6
Court.” Respondents’ Joint Brief, p. 3. According to the
Respondents, a discussion of the material facts in dispute
is “improper,” and that this Court should look only to the
factual version set forth in the Eleventh Circuit opinion. Id.
In doing so, the Respondents ignore the reality that their
“factual” version is “blatantly and demonstrably false.”
The Eleventh Circuit opinion in this case is analogous to
a similar judicial error corrected by this Court in Tolan
v. Cotton, 572 U.S. 650, 659 (2014), wherein it stated:
“Considered together, these facts lead to the
inescapable conclusion that the court below
credited the evidence of the party seeking
summary judgment and failed properly to
acknowledge key evidence offered by the party
opposing that motion. And while ‘this Court is
not equipped to correct every perceived error
coming from the lower federal courts,’ Boag v.
MacDougall 454 U. S. 364, 366 (1982) (O’Connor,
J., concurring), we intervene here because the
opinion below reflects a clear misapprehension
of summary judgment standards in light of our
precedents.”
The Eleventh Circuit, by repeating the claimed “facts”
presented by the Respondents which are contradicted by
the record evidence, as well as, weighing the evidence in
favor of said moving parties is contrary to the dictates
of this Court. Id.; See also: Scott v. Harris, 550 U.S. 372
(2007). As another example, in a footnote, the Eleventh
Circuit acknowledged that Deputy Yoder had changed
his initial sworn statement that no one had touched the
gun to the diametrically opposite testimony that he had
kicked it 20 to 25 feet down the hallway (which was still

7
less than half the distance to the actual position where a
gun was located), and proceeded to interpret this lie in the
light most favorable to the moving parties. (App. A, 5a).
It is clear that the Eleventh Circuit “has so far
departed from the accepted and usual course of judicial
proceedings ... as to call for an exercise of this Court’s
supervisory power.” Supreme Court Rule 10 (a).
A judicial decision which accepts, as its own, the
moving parties’ blatant misrepresentations is contrary
to the dictates of this Court, and is in conflict with other
Circuits.
As stated by the Sixth Circuit:
“ We may decide, as a legal question, an
appeal challenging the district court’s factual
determination insofar as the challenge contests
that determination as ‘blatantly contradicted
by the record, so that no reasonable jury could
believe it.’ Scott v. Harris, 550 U.S. 372, 380, 127
S.Ct. 1769, 167 L.Ed.2d 686 (2007) ; Plumhoff,
134 S.Ct. at 2020.
We may not, however, decide an appeal
challenging the district court’s determination
of “‘evidence sufficiency,’ i.e., which facts a
party may, or may not, be able to prove at trial.”
Johnson v. Jones, 515 U.S. 304, 313, 115 S.Ct.
2151, 132 L.Ed.2d 238 (1995). Because such a
challenge is purely fact-based, lacking any issue
of law, it ‘does not present a legal question in the
sense in which the term was used in Mitchell,’

8
Plumhoff,134 S.Ct. at 2019, and is therefore
not an appealable ‘final decision’ within the
meaning of 28 U.S.C. §1291.”
McDonald v. Flake, 814 F.3d 804, 812-813 (6th Cir. 2016).
Throughout the appeal process, Respondents have
disputed the material facts of the case, repeatedly
misrepresenting the record evidence and testimony,
including denying the existence of evidence that, shortly
after the shooting, Wengert left and returned to the
hallway where Thompson lay dying, giving him and his
cohorts the time and opportunity to plant evidence, all
the while not allowing others, including paramedics, from
entering the scene. As the record evidence demonstrated,
Wengert, in his initial statement, admitted to leaving to
move his vehicle and then returning to the shooting scene.
It took twelve minutes. The twelve minutes that precluded
emergency rescue personnel from treating the dying
man, under the guise that they, Wengert and Yoder, were
looking for another suspect in the hallway.
“‘Under Johnson, therefore, a determination that
a given set of facts violates clearly established
law is reviewable, while a determination that
an issue of fact is `genuine’ is unreviewable.’
This jurisdictional limitation requires that, if
‘the defendant disputes the plaintiff’s version
of the story, the defendant must nonetheless be
willing to concede the most favorable view of the
facts to the plaintiff for purposes of the appeal.’”
(Internal citations omitted).
Moldowan v. City of Warren, 578 F.3d 351, 370 (6th Cir.
2009).

9
The decision of the Eleventh Circuit has departed
from the accepted and usual course of judicial proceedings,
thereby warranting review by this Court.
II. The Eleventh Circuit’s findings of fact based upon
the moving party’s version of the evidence, and
its acceptance of pendent jurisdiction based upon
those facts, is in conflict with the decisions of this
Court, other Circuits and Florida courts
The Eleventh Circuit improperly accepted pendent
jurisdiction on the Petitioner’s state law and Monell claims,
stating that such claims are “inextricably intertwined”
with the denial of qualified immunity. This is contrary to
the dictates of this Court and other Circuits.
“‘Pendent appellate jurisdiction may be
exercised only when the immunity issues
absolutely cannot be resolved without addressing
the nonappealable collateral issues.’ Henricks
v. Pickaway Corr. Inst., 782 F.3d 744, 752 (6th
Cir.2015) (editorial marks omitted) (quoting
Archie v. Lanier, 95 F.3d 438, 443 (6th Cir.1996)
); Chambers v. Ohio Dep’t of Human Servs., 145
F.3d 793, 797 (6th Cir.1998) (emphasizing that
‘pendent appellate jurisdiction is not meant to
be loosely applied as a matter of discretion;
rather, such jurisdiction only may be exercised
when the appealable issue at hand cannot be
resolved without addressing the nonappealable
collateral issue’). Such is not the case here.”
Flake, 814 F.3d at 816.

10
To accept pendent jurisdiction based upon “blatantly
and demonstrably false” factual determinations would be
a clear departure from the accepted and usual course of
judicial proceedings, thereby warranting review by this
Court.
CONCLUSION
The Respondents have not, and cannot, explain away
the patently incorrect findings of the Eleventh Circuit,
which are in direct conflict with the record evidence.
For the foregoing reasons and as stated in her Petition,
Petitioner respectfully requests that this Honorable Court
grant certiorari.
Respectfully submitted,
Barbara A. Heyer
Counsel of Record
Heyer & A ssociates, P.A.
1311 S.E. 4th Avenue
Fort Lauderdale, FL 33316
(954) 522-4922
civilrtslaw@hotmail.com
Attorneys for Petitioner

